BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-855
MARYLAND SHALL ISSUE, INC., ET AL.,

Petitioners,
V.

LAWREN CE HOGAN,

Respondent.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief of Amici Curiae David Codrea,
Scott Heuman and Owen Monroe in Support of
Petitioners contains 2,291 words, excluding the parts
of the Brief that are exempted by Supreme Court Rule
33.l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on January 21, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

'-1

JOHN D. GALLAGHER
Noiary Public, State of Ohio

My Commission Expires
February 14, 2023

